fT

C@OCKLE

L | Brief E-Mail Address:
°Ba s contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est.1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

GEOPHYSICAL SERVICE, INCORPORATED,
Petitioner,

v.
TGS-NOPEC GEOPHYSICAL COMPANY,
Respondent.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of January, 2020, send out

from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JOEL B. ROTHMAN DON CRUSE
SRIPLAW, P.A. Counsel of Record
21301 Powerline Road LAW OFFICE OF DON CRUSE
Suite 100 1108 Lavaca St.
Boca Raton, Florida 33433 Suite 110-436
(561) 404-4350 Austin, Texas 78701
joel.rothman@sriplaw.com (512) 853-9100
don.cruse@

texasappellate.com

Subscribed and sworn to before me this 10th day of January, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary *
State of Nebraska :. Le Qudrow-
My Commission Expires Nov 24, 2020 ; .

Notary Public Affiant. 39222

 

 
Ms. Melanie B. Rother
Norton Rose Fulbright US LLP
1301 McKinney
Suite 5100
Houston, TX 77010-3095
(718) 651-5560 :
melanie.rother@nortonrosefulbright.com
Attorney for TGS-Nopec Geophysical Company
